<html>
<title> - NOMINATION OF FRANK LIBUTTI TO BE UNDER SECRETARY FOR INFORMATION ANALYSIS AND INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 108-182]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 108-182
 
   NOMINATION OF FRANK LIBUTTI TO BE UNDER SECRETARY FOR INFORMATION 
ANALYSIS AND INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARINGS

                               Before the

                    SELECT COMMITTEE ON INTELLIGENCE

                                 of the

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

   NOMINATION OF FRANK LIBUTTI TO BE UNDER SECRETARY FOR INFORMATION 
ANALYSIS AND INFRASTRUCTURE PROTECTION, DEPARTMENT OF HOMELAND SECURITY

                               __________

                          JUNE 17 AND 18, 2003










                        U.S. GOVERNMENT PRINTING OFFICE
90-302                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                    SELECT COMMITTEE ON INTELLIGENCE

                     PAT ROBERTS, Kansas, Chairman
          JOHN D. ROCKEFELLER IV, West Virginia, Vice Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              RICHARD J. DURBIN, Illinois
OLYMPIA J. SNOWE, Maine              EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                JOHN EDWARDS, North Carolina
SAXBY CHAMBLISS, Georgia             BARBARA A. MIKULSKI, Maryland
JOHN W. WARNER, Virginia
                   BILL FRIST, Tennessee, Ex Officio
              THOMAS A. DASCHLE, South Dakota, Ex Officio
                                 ------                                
                      Bill Duhnke, Staff Director
             Christopher K. Mellon, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                            C O N T E N T S

                                                                   Page
Hearing held in Washington, D.C., June 17, 2003..................     1
Statement of Libutti, Frank, Nominee to be Undersecretary of 
  Homeland Security for Information Analysis and Infrastructure 
  Protection.....................................................     4
Supplemental Materials:
    Letter dated May 28, 2002 from Senator Roberts and Senator 
      Rockefeller to Mr. Libutti transmitting questionnaire and 
      pre-hearing questions......................................    23
    Senate Select Committee on Intelligence Questionnaire for 
      Completion by Presidential Nominees........................    24
    Questions for Nominee and responses..........................    37
    Comstock, Amy L., Director, Office of Government Ethics 
      Letter to the Honorable Pat Roberts, Chairman, Select 
      Committee on Intelligence dated May 12, 2003...............    40
    Financial Disclosure Report of Frank Libutti.................    41
    Coyle, Robert E., Designated Agency Ethics Official U.S. 
      Department of Homeland Security, letter dated August 4, 
      2003.......................................................    47
    Memorandum from Frank Libutti, dated August 1, 2003..........    48
Hearing held in Washington, D.C., June 18, 2003..................    21


  NOMINATION OF FRANK LIBUTTI, LIEUTENANT GENERAL, USMC, RET., TO BE 
   UNDER SECRETARY OF HOMELAND SECURITY FOR INFORMATION ANALYSIS AND 
                       INFRASTRUCTURE PROTECTION

                              ----------                              


                         TUESDAY, JUNE 17, 2003

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Pat Roberts 
(chairman of the committee), presiding.
    Committee Members Present: Senators Roberts, DeWine, 
Warner, Rockefeller, Levin, and Wyden.
    Chairman Roberts. The Committee will come to order. Senator 
Rockefeller should be here in the very near future.
    This afternoon the Committee considers the nomination of 
Lieutenant General Frank Libutti to serve as our nation's first 
Under Secretary of Homeland Security for Information Analysis 
and Infrastructure Protection. That's a mouthful but it's a 
very important challenge, and very important responsibility, 
and I personally think we have the right man for the job.
    Now President Bush has chosen the General to fill an 
important position that was created by the Homeland Security 
Act of 2002. Oddly enough, the original version of that 
legislation did not include an intelligence function. At the 
express urging of this Committee, however, the legislation 
actually signed into law by the President includes important 
provisions establishing intelligence analysis and sharing as an 
integral function of the new Department.
    The Homeland Security Act established a Directorate for 
Information Analysis and Infrastructure Protection, to create 
the direct links between intelligence analysts and those 
responsible for protecting critical U.S. infrastructure. Now, 
in plain English, critical infrastructure means agriculture, 
food, water, public health, banking, financial institutions, 
transportation and probably a few others. Timely and reliable 
intelligence must play an integral role as the Department of 
Homeland Security assesses the threat posed to these important 
sectors by terrorists.
    If confirmed--or, rather, when confirmed--General Libutti 
will be responsible for sharing threat information with state 
and local authorities and others. For as long as I have been a 
member, this Committee has emphasized the need for improvement 
in this area. The Joint Inquiry into the 9/11 attacks confirmed 
that better information-sharing must be achieved in order to 
continue the national effort against Osama bin Laden and others 
like him and also to succeed.
    I expect the General's new directorate to address issues 
highlighted by the Joint Inquiry and to find a way to ensure 
the seamless flow of information from the intelligence 
community to his directorate, then on to state and local 
authorities. A large factor in achieving this seamless 
information flow is to find the proper working relationship 
with the Director of Central Intelligence on the one hand and 
with state and local authorities on the other. Both are 
absolutely essential to making this country more secure. And if 
you need help from us to make it happen, pick up the phone, 
General.
    I have met with General Libutti. I am confident of his 
ability to perform the responsibilities that will be expected 
of him. His experience as a senior commander in the United 
States Marine Corps and as Deputy New York Police Department 
Commissioner of Counterterrorism represent an excellent 
background for this job. We are delighted that you are here.
    General, before I turn to my colleague and friend, the Vice 
Chairman, the distinguished Senator from West Virginia, for any 
remarks he would like to make prior to your opening statement, 
I invite you to introduce any family members or other fans or 
Marines that would accompany you today.
    General Libutti. Mr. Chairman, I'm delighted and honored to 
be here. With that as a backdrop, I'd like to introduce my 
wife, Jeannie, who is a Navy captain, retired. Jeannie.
    Chairman Roberts. Welcome, Jeannie.
    Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    I would also like to join with you in welcoming General 
Frank Libutti. We had a good chance to talk in my office. I 
want to congratulate you on your nomination and what I hope 
will be your approval by the entire Senate.
    The centerpiece of your service has been 35 years in the 
United States Marine Corps. That is something which probably 
did not escape the attention of our Chairman. But I would like 
to take special note, as he did, of your service beginning in 
January of 2002 to what has to be one of the toughest jobs in 
the entire world, and that is being New York's Deputy Police 
Commissioner for Counterterrorism. You've been on the front 
lines in many, many places.
    We should all be very pleased the President has nominated 
to the highest ranks of our new Department of Homeland Security 
a leader who has learned the needs of local governments and 
first responders. I meet with them all the time, as you and I 
discussed in my office, and they say we're still looking for 
our first dime and our first sense of direction. But then I 
also understand that this is an enormous department which is 
being put together and it takes some time. I hope and I trust--
in fact I'm confident--that you will be a strong advocate for 
their needs and their requirements because you have been there.
    In addition to welcoming you, General, this hearing is an 
occasion to welcome the Department of Homeland Security to the 
oversight status of this Committee. The office to which you 
have been nominated, that of Under Secretary of Homeland 
Security for Information Analysis and Infrastructure 
Protection, was created by section 201 of the Homeland Security 
Act of 2002.
    Section 201 lays out the main functions of the Under 
Secretary's directorate. One is to access, receive and analyze 
law enforcement and intelligence information in order to 
identify and assess the nature and scope of terrorist threats 
to the homeland. The second is to assess the vulnerabilities of 
the key resources and critical infrastructure of the United 
States and plan for their protection.
    In carrying out these responsibilities, section 201 directs 
the Under Secretary to consult with the Director of Central 
Intelligence, among others, to establish collection priorities 
for information relating to terrorism threats against the 
United States. It is clear that the Under Secretary has 
important responsibilities relating to intelligence. It is not 
surprising, therefore, that the final subsection of section 201 
amends the National Security Act of 1947, the basic charter of 
U.S. intelligence, to make part of the intelligence community 
``the elements of the Department of Homeland Security concerned 
with the analysis of foreign intelligence information.''
    As the Committee charged by the Senate to ``provide 
vigilant legislative oversight to the intelligence activities 
of the United States,'' we look forward to Homeland Security's 
participation in the intelligence community and congressional 
oversight of it. During the course of this hearing and of our 
endeavors, I'd like to ask you to consider two issues, and I'll 
probably have others.
    First, just last November, on establishing the department 
of Homeland Security, Congress by law gave to that department 
responsibility to integrate from all governmental sources 
terrorist threat information. The following month, in December, 
this Committee joined our House counterpart on conclusion of 
the September 11 Joint Inquiry in recommending that ``Congress 
and the Administration should ensure the full development 
within the Department of Homeland Security of an effective all-
source terrorism information fusion center that will 
dramatically improve the focus and quality of counterterrorism 
analysis.''
    Then, in January, the President created the TTIC and placed 
it under the Director of Central Intelligence. We should ask, 
can the law and the presidential directive be reconciled, and I 
will ask that, both in conformity to the law and in the 
interest of effective counterterrorism. And if it can be 
reconciled, how is it reconciled?
    Secondly, under the directorate that you, General, have 
been nominated to head, you are charged with formulating a 
comprehensive national plan for securing the key resources and 
critical infrastructure of the United States. The Under 
Secretary if also charged with making recommendations on 
measures that are necessary to protect resources and 
infrastructure ``in cooperation with state and local government 
agencies and authorities, the private sector, and other 
entities.''
    As my colleagues know, I strongly believe that our national 
government has so far failed to provide the state and local 
governments the assistance they require to undertake essential 
tasks that fall first to the first responders. I trust that our 
nominee, having just come from a position of high 
responsibility as I've described, can bring to the Homeland 
Security Department both knowledge and conviction about the 
needs of our states and the local governments within them.
    I look forward to hearing the nominee's views on measures 
that are needed to make state and local governments full and 
effective partners in our national effort against terrorism. 
And I thank you and welcome you, and you too, ma'am.
    Chairman Roberts. General, please feel free to make your 
statement. Rest assured that your entire statement will be made 
part of the public record.

  STATEMENT OF FRANK LIBUTTI, LIEUTENANT GENERAL, USMC, RET., 
 UNDER SECRETARY OF HOMELAND SECURITY FOR INFORMATION ANALYSIS 
            AND INFRASTRUCTURE PROTECTION-DESIGNATE

    General Libutti. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Rockefeller and distinguished Members 
of the Committee, I am very pleased to come before you today as 
you consider my nomination as Under Secretary for Information 
Analysis and Infrastructure Protection. Before I begin, I would 
like to thank President Bush and Secretary Ridge for placing 
their confidence in me. I am honored and humbled to be 
nominated to serve in the Department of Homeland Security.
    For the past 37 years I have devoted my professional life 
to serving my country and combating terrorism. It is this 
experience that I hope to bring to this new Department. With me 
today is my wife, Jeannie, who I previously introduced. Her 
support has been absolutely superb in coaching and teaching me 
the rules of the road relative to my responsibilities both on 
the job and at home.
    For the past 16 months, I have served as the Deputy 
Commissioner for Counterterrorism of the great city of New York 
and for the New York Police Department, where I was focused on 
the prevention of, response to, and investigation of terrorist 
acts in New York City. Through my time with the New York City 
police department I have come to appreciate firsthand the 
responsibilities of our first defenders and first responders 
and the organizations that support them.
    Previous to my work as Deputy Commissioner in the NYPD, I 
helped stand up the Office of Homeland Security for the 
Department of Defense, where I served as the special Assistant 
to the Executive Agent for Homeland Security in the Department 
of Defense.
    I was honored to serve for 35 years in the United States 
Marine Corps. My last assignment was as Commanding General 
Marine Forces Pacific, Commanding General Marine Forces Central 
Command, Commanding General Marine Forces Korea, and Commanding 
General Marine Corps Bases Pacific. I was privileged to command 
75 percent of the Corps' operating forces, plus Marines 
stationed at our bases in southern California, Hawaii, and 
Japan, with my commands totaling approximately 80,000 Marines 
and civilians. During my last nine years as a General Officer, 
I routinely dealt with operational and strategic issues at the 
national level, which included our country's major war plans 
and humanitarian operations.
    If I should become the new Under Secretary of IAIP, I will 
do everything within my power to accomplish our mission of 
protecting the American people from terrorism by identifying 
and assessing threats to the homeland, mapping those threats 
against our vulnerabilities, issuing warnings, and providing 
the basis from which to organize protective measures to secure 
our homeland.
    I will work to ensure that we meet our mission by 
effectively partnering on a number of levels. We will work with 
the CIA, the FBI and other members of the intelligence and law 
enforcement communities both to receive and to share 
information. As information is collected and mapped to critical 
infrastructure vulnerabilities, our top priority must be to get 
this information to those federal, state and local officials 
who represent the first line of defense against and response to 
terrorist attacks.
    Just as we need to partner effectively with our 
counterparts in federal and local governments, we must form and 
maintain active partnerships and information-sharing procedures 
with the critical infrastructure sectors. Eighty-five percent 
of critical infrastructure in the nation is owned and operated 
by private industry, so we must build relationships that 
deliver timely and appropriate warnings and protective measures 
to our private partners.
    Significant progress has been made and continues to be made 
in the IAIP Directorate. I am impressed with the quality of 
people in this organization and the dedication and diligence 
they have shown in addressing their mission. As with any new 
organization, there is work to be done implementing processes, 
procedures and structure. I approach this process of 
organization fully realizing that at any given moment we must 
be ready to respond to a crisis. I am confident that we can 
handle the challenges presented today and, as each day passes, 
we will handle them with ever-increasing skill and aplomb.
    As Secretary Ridge has said time and time again, ``When our 
hometowns are secure, our homeland will be secure.'' That is 
not merely rhetoric but a fundamental principle of the nation's 
homeland security effort. Everyone is a partner in this effort. 
In addition to the other public and private partners I have 
already mentioned, I will work to cultivate effective 
partnerships with the Congress, academia, and the American 
people themselves. Each partnership will be a two-way 
communications channel, built on trust, that enables the timely 
and reliable exchange of information.
    I come before you today with a readiness to provide 
leadership that is exercised not only in-house but with our 
partners. We must be aggressive in reaching out and connecting 
and staying connected with those partners to provide an 
extraordinary and unprecedented exchange of information. This 
information must be not only actionable by local law 
enforcement and first responders but must also empower the 
average citizen to do their part in securing our homeland. We 
must provide advisories and warnings that encourage prevention 
and help to mitigate loss. I recognize the critical role in 
homeland security of the office for which I am being 
considered. This is a job that must be done right. The 
challenges we face in doing so are numerous and must be 
approached with a sense of urgency. I assure you that I 
personally have the enthusiasm to address these challenges and 
to make a difference.
    I clearly understand my mission and I am conscious of and 
appreciate the responsibilities I will be given if confirmed.
    Mr. Chairman, Senators, I respectfully ask for your 
favorable consideration for my nomination and I stand ready to 
respond to any questions that you may ask.
    Thank you, sir.
    Chairman Roberts. Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman. I 
particularly wanted to join the members of the Committee today 
to listen to this distinguished American who has obviously had 
a record of achievement that ably qualifies him for this 
important position.
    I'm studying a wiring diagram, Mr. Chairman. You are an 
expert on wiring diagrams, and it's the Department of Homeland 
Defense. I'm trying to get it clear in mind your reporting 
chain.
    General Libutti. Sir, my boss is Secretary Ridge.
    Senator Warner. So then through England? I am just kind of 
curious.
    General Libutti. I think it would be altogether fitting and 
proper that I kept the Deputy informed, but my boss is the 
Secretary. I intend to exercise my mission with consideration 
and sensitivity to the position of the Deputy, but my boss is 
the Secretary.
    Senator Warner. I anticipate that you're going to have to 
on occasion make some very, very quick decisions, and I hope 
that that chain enables you to do that with the concurrence of 
the Secretary, when you and he deem it necessary. I expect he's 
imposed in you a lot of discretion to be able to act in 
instances of emergency. Would I be correct in that?
    General Libutti. Sir, you are correct.
    Senator Warner. On the question of intelligence, to what 
extent will you have access to, if you so desire, the raw 
intelligence which can be amassed, as I understand it, by 
really three entities. You've got the Terrorist Threat 
Integration Center. That works for the Director of Central 
Intelligence. And your primary domestic intelligence collection 
is the FBI Security Division that works for the Department of 
Justice. And then, of course, the CIA is involved in this in 
terms of the Terrorist Threat Integration Center.
    Kind of tie that together for me. How are you going to work 
all of these? It's a rather interesting orchestration.
    General Libutti. First, I'll tell you that in terms of 
personal leadership and reaching out for counterparts at all 
the agencies you mentioned, I'm going to build on the rapport 
and leadership of Secretary Ridge, which suggests that the way 
we want to do business with full trust and confidence in our 
partners within the intelligence community, number one.
    Number two, in terms of the Homeland Security Act, if 
confirmed I will have the authority to reach out across any 
intelligence borders to ask appropriate questions, to solicit 
information, to ask for additional collection, and to do so 
with an aggressive attitude.
    Senator Warner. You actually have tasking authority, then?
    General Libutti. I wouldn't say tasking so much except in 
perhaps what we would call the spirit of cooperation. So, said 
another way, in terms of our relationship we are both 
contributor and customer depending on the situation, and I 
intend to exercise that to the fullest extent possible.
    I do not see, quite frankly, obstacles or borders that 
would in any way, shape or form, if I'm confirmed, prevent me 
from reaching out across any intelligence service that focuses 
either on the domestic side or on the international overseas 
side to get what I need to do my job, which is to protect the 
homeland.
    Senator Warner. Well, then would you sort of make some spot 
checks on raw intelligence from time to time?
    General Libutti. I intend to do that, yes, sir.
    Senator Warner. I think that's an important function.
    I have a very high regard, of course, for Secretary Ridge 
and I have worked very closely and have a high regard for 
Gordon England when he was in the Navy secretariat, and somehow 
Ridge has really, including yourself, done a lot of recruiting 
which is quite extraordinary. I expect you were recruited for 
this job. Perhaps you are too humble to answer that. But anyway 
I'm sure that's the case.
    And I'm glad that you responded to come back into federal 
service.
    Mr. Chairman and Members of the Committee, I think we're to 
consider ourselves very fortunate that you and your very lovely 
partner in life, the Captain, have rejoined and are undertaking 
this effort, and I hope that you look upon this Committee as a 
source of helpful guidance from time to time and advice.
    Thank you very much, Mr. Chairman.
    Chairman Roberts. Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much.
    General, thank you very much for joining us. We wish you 
well. As my colleagues have pointed out, you have a great 
background for this position and we're glad that the decision 
has been made to nominate you.
    I wonder if I could explore with you or if you could 
comment about your relationship in this position with the 
Terrorist Threat Integration Center which was established by 
Presidential Directive and which has been placed under the 
jurisdiction of the Director of Central Intelligence, what 
their role is, your role is and how you would work together.
    General Libutti. Sir, I think the TTIC is a magnificent 
display or demonstration of what I call a joint effort and 
partnership with the FBI, CIA, Homeland Security and other 
federal agencies to integrate and analyze intelligence. The 
IAIP Directorate has senior leadership represented as members 
of that very special partnership. The total is seven people, 
with a senior leader that exercises supervision over our folks.
    I see that as a plus in that it brings both the domestic 
and overseas intelligence data into one central location where 
people partner in a collegial atmosphere and deal with threats 
to our country.
    Senator DeWine. General, but the Homeland Security Act 
requires your office to access, receive, analyze law 
enforcement information, intelligence information and other 
information. So how do you square that with what they do? I 
mean, for a layman just picking up the definitions, you'd say 
well, what's the difference here. Aren't you guys doing the 
same thing, duplication? What's going on here.
    General Libutti. I think the answer is reflected in the 
word or concept of ``complementary effort.'' As the law would 
indicate and, if confirmed, I intend to follow not only the 
spirit but the letter of the law, I would have a great 
responsibility, in concert with local law enforcement and first 
responders and state and local authorities to ask them to 
support our efforts to collect and to support the broader 
intelligence mosaic so we get information from local and state 
authorities, it is passed back up to the IA side of IAIP, it is 
analyzed, to your point of do we analyze as well as simply 
collect data and record that which comes out of TTIC.
    We do our own separate analytical work. Some would call it 
competitive analysis. I think that's extremely healthy. It may, 
when required, include red-teaming based on what we get from 
the TTIC. How that makes sense to us in terms of----
    Senator DeWine. Include what?
    General Libutti. I'm sorry, sir?
    Senator DeWine. What was the term? Your term of art was 
what?
    General Libutti. Red-teaming. I'm sorry. Forgive me. It's a 
very simple concept that talks about designating folks within 
your own camp or your own office to look at and think like and 
behave in support of the way bad guys, terrorists, would come 
at us, so they study the terrorist activities, their SOPs, 
their approach to dealing with target sets, priorities, et 
cetera. That's what they do for a living. They think and 
breathe like a terrorist.
    You have them on your team. They come back in to you after 
you have a basic plan developed and they essentially dissect 
that plan and talk about where the seams and gaps are in terms 
of vulnerabilities and risk. Forgive me. It's a term of 
expression we've used in the military for many, many years. 
Does that answer your question, sir?
    Senator DeWine. That answers what the term means, but I'm 
still trying to get the difference between what you're going to 
do and what--you're talking about complementary. You're talking 
about competition, which is healthy, which I agree.
    General Libutti. The competition piece is outside the TTIC. 
The functions that I see as most critical are those that deal 
with the information analysis within IAIP, the sharing of that 
information so we can get it to first responders very quickly 
and expedite that in a streamlined management approach to 
getting it to local and state authorities.
    That is different than the mission of TTIC, which is to 
integrate both domestic and overseas intelligence, including 
raw intelligence. Our job is not to collect. It's not to 
integrate. It is to be partners with other critical members of 
the intelligence community and then the byproduct of that comes 
to us. We work it. We look at it in terms of the other side of 
my directorate, if confirmed, which is the IP piece. So we look 
very carefully at national infrastructure, which doesn't simply 
mean cities and large areas. It talks about all of what the 
Chairman indicated as centers of gravity across our country--
agriculture, transportation, et cetera.
    So we are simultaneously looking at threats against our 
infrastructure, vulnerabilities and risk relative to that 
infrastructure, held up against the intelligence analysis that 
we do, which is a byproduct of and also a partnership with what 
comes out of TTIC. So I think it's very complementary. I am 
encouraged. I will tell you that I spent three hours at TTIC's 
headquarters last week and met the senior leadership there. And 
I am very sanguine we can make this work.
    Senator DeWine. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Let me ask the nominee just a couple of questions. The 
first is, you all are supposed to take the intelligence about 
threats to the infrastructure, analyze where our weaknesses 
are, and then basically give us recommendations on how to 
protect ourselves and how to protect our infrastructure. How 
are you going to go about doing that, and do you even have the 
people? How do you go about doing it without in effect alerting 
some of the people who are involved in putting our citizens at 
risk to what you're up to?
    General Libutti. Well, the infrastructure piece is a key 
critical piece of the responsibilities I'll have if I'm 
confirmed. I would tell you when I think infrastructure I not 
only think about the physical piece but the cyber piece, and 
I'm delighted to share with you what was an event that happened 
about a week and a half ago which I witnessed, and that was the 
rolling at the Office of Homeland Security of the Cyber 
Security Division.
    So the approach that needs to be and absolutely must be 
taken in terms of our view of infrastructure protection must 
include the physical and cyber piece. Having said that, the 
answer to your question is again back to partnership, which 
means you can't think about it; you must actively reach out for 
the business community, the private sector. You must obviously 
work within the law. But you must create a bridge between our 
office and those leaders within the private sector.
    And I think the right answer there is to send a strong 
signal as soon as possible that we're interested in working 
with them to improve their readiness, reduce their 
vulnerabilities and, by doing so, strengthen the readiness of 
the country.
    Senator Wyden. You, I think, were told by the staff that I 
was very much involved in section 224 of the legislation to 
create the National Emergency Technology Guard mobilizing 
people in the science and technology sector, and it grew out of 
the 9/11 experience. Major companies like Intel were prepared 
to send huge numbers of people and vast amounts of equipment to 
New York, and they basically couldn't even get certified, 
couldn't even get through and literally were forced to just 
sort of stand around at a time when all the infrastructure was 
down.
    These companies are prepared now to make a huge 
contribution in terms of time and equipment and personnel, and 
that's what's behind the NET Guard concept. I would like to 
hear your thoughts about how you're going to, if confirmed, go 
about implementing this.
    General Libutti. Well, I'm not a duty expert, nor am I 
expert in technology. I'm a basic infantry officer that got 
lucky. I would tell you that I do have experts on my staff, 
starting with Bob Leskowski, who is head of the IP Directorate. 
I'll rely heavily on Bob and other duty experts to help me 
shape a way ahead. But the key to success is to focus on this 
partnership, in my view, to ask the private sector to help us 
identify how we can improve our readiness in a holistic sense.
    Senator Wyden. The only thing I'd say--and I understand you 
are going to have a lot on your plate and are not going to be 
able to get at this in the first week--you don't have to ask 
the private sector. They're telling you they're ready, but 
you're going to have to do what the law calls for, and that's 
to take the steps to mobilize them and to take steps, for 
example, so that, for example, we even have an inventory around 
the country of these people and volunteers who are prepared to 
help.
    I mean, you talk about asking the private sector. Not only 
are they not waiting to be asked, they are volunteering. And 
it's now the job of people in your organization to make sure 
that we, with a very modest role for government, put in place 
the system so we can tap them, so that if there were to be 
another tragedy and infrastructure was knocked out in a major 
city, you can call up the Intels of the country and say we need 
200 people, we need the following software, we need the 
following equipment, and be able to use it.
    Without moving to deal with this, recognizing you may not 
be able to get at it in your first 48 hours, we're going to 
miss an opportunity, because this is free help. These are 
people who are saying they are ready, willing and able, and 
that is the point of the NET Guard kind of concept.
    Everything I have heard about you is that you bring great 
commitment to this position. I'm looking forward to supporting 
you as we go forward, but you will hear from me frequently on 
this subject because I think this is too great an asset to 
fritter away because government says, oh, we ought to be asking 
the private. They are ready to do it. They don't need to be 
asked, but they do need a modest role in coordinating the 
effort.
    Thank you, Mr. Chairman.
    General Libutti. Thank you, sir.
    Chairman Roberts. Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    General, I indicated in my opening statement that I wanted 
to ask you a couple of questions and I now want to do that. If 
you could just kind of put yourself forward and pretend that 
the Department of Homeland Security was in order and operating, 
what we do is, as I indicated, we give you the responsibility 
to access, receive and analyze law enforcement intelligence 
information, number one, number two, in order to integrate that 
information to identify the terrorist threat to the homeland.
    So please describe how the Homeland Security Department is 
carrying out--and I don't think you can answer that question 
yet--or proposes to carry out this important responsibility. In 
that I don't think you can, because you haven't started and 
haven't been confirmed, let me get to my second question, and 
then you can take off on both answers.
    Number two, whether the Homeland Security Department is 
receiving the full cooperation of the U.S. intelligence and law 
enforcement community and what steps you would take if you were 
not getting full cooperation, and only the second part of that 
is really operative at this point since you're not up and 
running, and thirdly, the relationship between the 
responsibility that the Congress has given to you to integrate 
terrorist threat information and the responsibility given by 
presidential directive to the Director of Central Intelligence 
to establish a Terrorism Threat Integration Center.
    Do you see what I mean? There's a little bit of a rub 
there.
    General Libutti. My job is to eliminate the rub, to answer 
your question, and, if confirmed, to make it work, sir. Number 
one, I think, based on my observation--and it's only been a 
couple of weeks here as a consultant at the Office of Homeland 
Security--the activity in support of integration is in good 
shape.
    You know, the question I often get is, well, how do you 
know what you don't know. And it kind of talks to one of your 
questions relative to is the information being shared and what 
do I intend to do if I determine it's not being shared. I 
intend to be extremely aggressive about, as I mentioned 
earlier, crossing all lines in terms of the intelligence 
community but being as gentlemanly as possible to get what we 
need to execute my mission in support of the law.
    I don't see angst, frustration or walls being built around 
that effort. I see cooperation across the agencies, the FBI and 
the CIA and other intelligence agencies, which give me a sense 
of confidence that people understand this has to be a united 
effort or it's not going to work.
    Now again, I'm at the infant stages of this great 
experience, but I can pledge to you I will give it all of my 
support and energy to do exactly what I've said, and that is--
--
    Vice Chairman Rockefeller. General, I agree with how you 
assess yourself. I'm not sure I agree yet with how you assess 
the cooperation of the intelligence community. So that's why 
the question of what would you do if you weren't getting the 
cooperation, because it's my guess--and I think maybe the 
intelligence community may or may not be warm to the entrance 
of a new Department of Homeland Security. I'm not convinced 
that they will be, because there are so many already.
    But if you were not getting the information-sharing, what 
would you be prepared to do? That's a fair question.
    General Libutti. Yes, sir. I would go to the appropriate 
agency where I thought we weren't getting support and I'd have 
a face-to-face meeting with the leadership there.
    Vice Chairman Rockefeller. And what if they declined to 
give you an appointment?
    General Libutti. I'd go to my boss and articulate the 
issues and challenges and provide recommendations.
    Vice Chairman Rockefeller. Okay.
    General Libutti. I would add a footnote, and again forgive 
me but I'm quite new to this environment, but I think I also 
have a responsibility to all of you.
    Vice Chairman Rockefeller. I think one of the things that 
the Chairman and I are frustrated about, because we're going 
through a little kind of a Degas pas de deux of some sort in 
another matter entirely, is that we're not able to talk about 
the things that we really want to talk about, which is 
information-sharing and connecting the dots and making sure 
that people are data-mining and doing all the right things and 
what are we going to do about domestic intelligence and 100 
other subjects. We haven't been able to get to that.
    What I'm suggesting to you is I think that you will not be 
as warmly received as you perceive and as you now see, and I 
hope I'm wrong, and I hope if I am right that you will exercise 
this in a Marinely fashion.
    General Libutti. Sir, I pledge to you that I will execute 
my mission smartly.
    Vice Chairman Rockefeller. Good. Thank you.
    Chairman Roberts. What the hell is it that you said? What 
kind of dance are we doing?
    Vice Chairman Rockefeller. Pas de deux. Isn't that right? 
Look, she's nodding her head. I don't know what it means. Jean, 
you know what it means.
    Chairman Roberts. Is that like square dancing?
    Vice Chairman Rockefeller. No, it's not like square-
dancing. I have no idea what it is. What is it?
    Chairman Roberts. Well, it's French and you shouldn't have 
used it.
    Vice Chairman Rockefeller. Well, I apologize. [Laughter.]
    Chairman Roberts. Sounds like dirty dancing a little bit. I 
don't know what's going on.
    And ``marinely?''
    Vice Chairman Rockefeller. Well, I was trying to humor you, 
you see. I was trying to humor you. Marinely.
    Senator Levin. A new word.
    Vice Chairman Rockefeller. When we were in Qatar we could 
barely get to any other service area but the Marines.
    Chairman Roberts. And rightly so.
    Vice Chairman Rockefeller. And rightly so. [Laughter.]
    Chairman Roberts. The determined and tenacious Senator from 
Michigan, Senator Levin, is recognized.
    Senator Levin. Whenever I go into the ``Qatar,'' I want to 
be with a Marine, by the way. I need all the help I can get. 
[Laughter.]
    Thank you, Mr. Chairman. It's good to be with you again.
    Chairman Roberts. And again and again and again.
    Senator Levin. You and I have spoken, General, about the 
relationship between the Counterterrorist Center and the TTIC 
and the DHS. I know Senator DeWine asked about that and I want 
to just press you further on that, because we've been assured 
that we would have either an Executive Order or statement of 
policy or something which set forth that relationship by now 
from Governor Ridge or from the Executive branch, because there 
is an overlap.
    In addition to making sure you can get whatever information 
you need, the opposite side is also a problem, which is that if 
we have too many people doing the same thing we're going to not 
have accountability. This is what we saw before, going up to 9/
11, where we did not have accountability, we did not have 
responsibility, and a number of things fell through the cracks 
that shouldn't have fallen through the cracks.
    Tell us your understanding in terms of analysis of foreign 
intelligence where that principal responsibility lies as 
between the Counterterrorist Center in the CIA, TTIC, which is 
under the direction of the DCI, and the----
    General Libutti. The DCI--I'm sorry, sir. The DCI is 
charged with oversight responsibilities. The gentleman who 
leads that is from the CIA, but that gentleman who is the 
director of TTIC could, quite frankly, in terms of the 
Memorandum of Agreement, be from Homeland Security or the FBI.
    Senator Levin. Is there an agreement?
    General Libutti. There is an MOU that is signed by the FBI, 
the CIA and the Homeland Security office that articulates that 
relationship and the collegiality with which that partnership 
has been joined.
    Senator Levin. Does that explain the relationship between 
TTIC, CTC, and DHS. Does that Memorandum of Understanding?
    General Libutti. It does say that, but I would like to add 
as a sidebar before coming over I saw a letter signed by 
Secretary Ridge to Senator Lieberman that addresses this very 
issue, that talks to the points that you and I have talked 
about in the past, and clearly articulates in terms of 
definition and responsibility and accountability who does what 
to whom.
    Senator Levin. And does that document----
    General Libutti. It should have been released by midday or 
early afternoon, sir.
    Senator Levin. Today?
    General Libutti. Yes, sir, that's correct.
    Senator Levin. And what does it say as to where the 
principal responsibility lies for analyzing foreign 
intelligence? Who has it?
    General Libutti. The responsibility in terms of overseas 
collection and initial analysis rests with the Agency.
    Senator Levin. With CTC?
    General Libutti. With CTC.
    Senator Levin. The initial analysis. Who does the final 
analysis?
    General Libutti. Well, if I may, sir, again I want to stay 
focused on what I know and not talk about what I don't know. I 
am not an expert in terms of CTC. I understand what TTIC's 
responsibilities are and I know what my responsibilities are in 
terms of IAIP. So I don't want to get over my head and respond 
incorrectly to any details on CTC. I can simply tell you that 
because it's led by the Agency and the Agency's focus is 
overseas in terms of collection, analysis and actions, where 
appropriate, I would like to punctuate that with a period and 
say I'd like to shift to talk about TTIC and IAIP, if I may.
    Senator Levin. It's fine to talk about TTIC, but then I've 
got to ask you what is the relationship between TTIC and CTC. 
Who has the responsibilities between them for analyzing foreign 
intelligence?
    General Libutti. I think in a very both collegial and 
ecumenical fashion the Agency has their responsibilities in 
terms of the analytical spin on information and intelligence 
connecting the dots and the rest, with a view towards 
actionable supporting events.
    Now I want to, if I may, bring you back into the TTIC 
piece. That is a joint venture designed to bring the best of 
and most relevant data in terms of the intelligence community 
into that fora to look at what it means, analyze it and 
integrate it.
    Senator Levin. But that's what CTC does.
    General Libutti. But the focus is not both domestic and 
international.
    Senator Levin. It's foreign terrorism.
    General Libutti. Correct, sir.
    Senator Levin. It's analyzing foreign terrorism. And my 
question has got to be answered, if not today it seems to me 
for the sake of the health of our country, that we've got to 
know who's got the responsibility to analyze foreign terrorism, 
to put together all the information, to integrate it, as you 
have put it. They've got great brains there at CTC, the same 
folks, I'll bet you, sitting around the CTC table that sit 
around the TTIC table. As a matter of fact, I'd like to know of 
anybody at TTIC who is not at CTC. What agency is represented 
at TTIC that is not at CTC? There may be. I don't know of any, 
but there may be.
    But you've got the same agencies, with one exception--one 
exception, I think--and that is there would be something of a 
greater focus in terms of state and local law enforcement at 
TTIC. But how does that come to TTIC? Who is sitting there for 
state and local law enforcement at TTIC?
    General Libutti. The answer to the question in terms of 
influence is found in our operations center at the Department 
of Homeland Security, where we have local law enforcement or 
local authorities represented within our operations center.
    Again, the chain of communications or chain of command in 
terms of the TTIC responsibility of the analytical work and the 
integration is shared with partners at that table.
    Senator Levin. At TTIC.
    General Libutti. If I may, that information comes to our 
senior leadership. The senior leadership shares it with the 
Office of Homeland Security, specifically the IA of IAIP. That 
information is shared across the Department, including at our 
ops center. That information is then passed to local and state 
authorities in terms of on an as-needed basis and also as 
relevant to the tactical or operational scenario.
    To answer your question, there is a clean and proper line 
of communications between local and state authorities, the 
Office of Homeland Security, and, by extension, into TTIC.
    Senator Levin. And is it also true that there is a line 
between state and local law enforcement and CTC?
    General Libutti. I don't know that, sir, but I would be 
happy to take that under advisement and get back to you with an 
answer.
    Senator Levin. Well, there sure as heck ought to be, 
because if it relates to foreign intelligence, if you've got 
somebody who's a foreign person about whom we have evidence 
relative to terrorism, and you've got the FBI that's got 
evidence, you've got the CIA that's got evidence, and you've 
got local law enforcement that's got evidence, we need a place 
where those dots are going to be connected against that person. 
This is what we did not have relative to 9/11. That place 
relative to foreign terrorists is the CTC, I believe. Now I'm 
not here to testify, but I believe that that is where the 
principal responsibility lies relative to foreign terrorists.
    We've got to know that for sure. We just have to pin this 
down because otherwise we're going to have two places that have 
very many people in common that are going to both be doing the 
same thing, and it means, too often I'm afraid, that one will 
be saying that the other one is going to do it rather than us 
and we'll be pointing fingers again after the next event. And 
that's what we're trying to prevent.
    General Libutti. Again, sir, I promise I'll do my homework, 
but I would agree with you now, based on limited knowledge, 
that CTC is where that is done. That has not been my focus. 
Again, it's been on TTIC and my own organization, if confirmed, 
and that's been the area of concentration for me.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. I have a few, I guess, pragmatic 
questions that follow up Senator Levin's questions in regard to 
the TO chart and who has the responsibility. Do your analysts 
have access to raw intelligence today pursuant to the 
arrangements with the other agencies?
    General Libutti. Whatever intelligence information that we 
deem appropriate, we should have full access to, yes, sir.
    Chairman Roberts. Are your analysts able to independently 
pull what they need from all of the agency intelligence 
producers to do their analysis or must they request and then 
wait for others to push the information to them?
    General Libutti. To the best of my knowledge it's the 
former. That information is available to us.
    Chairman Roberts. Are you satisfied so far that your 
analysts can put together a complete and accurate picture of 
domestic threats?
    General Libutti. The short answer is yes. Let me expand or 
amplify on that. Until we have connected the dots or, said 
another way, established connective tissue with local law 
enforcement and first responders, that will be limited. Now as 
an example, if we get information that comes in from whatever 
source, is looked at at TTIC, is passed to our guys and it 
deals with any of the great cities or small counties in our 
country, we will engage with those local law enforcement folks 
or appropriate authorities and will work in concert with them.
    But my point is, I see that as a vital action that I need 
to tackle nearly immediately if we're going to make this thing 
work, if I'm confirmed.
    Chairman Roberts. Well, that leads to my next question. In 
the intelligence community there's a well-structured system in 
place intended to protect classified information from leaks or 
mishandling. As we're all very painfully aware, the federal 
system is imperfect. But no such system exists at all at the 
state or local levels, let alone the private sector. How will 
your office actually disseminate sensitive threat data yet 
protect the classification of that information?
    General Libutti. This is a question I wrestled with over 
and over when I was in New York, sir. There's no simple answer 
if the expectation is that we'll share highly-classified 
material, relevant, specific as opposed to general in nature, 
with local law enforcement across the country.
    Having said that, it is in practice now and I intend to 
push it until we get it right, and that is to take classified 
information, deal appropriately with sources and methods, make 
it law enforcement sensitive and get it to where it needs to go 
immediately. I'm talking minutes and hours, not days.
    Chairman Roberts. Could the classification system we have 
in place at the federal level actually inhibit your ability to 
disseminate threat information to first responders?
    General Libutti. Again, sir, the short answer is no. The 
footnote is that the current system in terms of all of us, in 
terms of our responsibility for safeguarding information, that 
could be a problem, and we all need to look at that, I think, 
very carefully. You can't pass classified information to a 
source or across a network that can't handle that 
classification.
    Most police departments and first responders don't have 
that capability. But, having said that, my intention is to make 
it work.
    Chairman Roberts. Are you going to have fewer analysts in 
the IAIP because of TTIC's role as a hub for threat analysis 
and integration? Are you going to have enough analysts?
    General Libutti. The plan is in place. In terms of TTIC, we 
will go from seven now to 14 in July. In terms of analysts 
within IAIP and specifically IA, we're at about 50 right now. 
Many of them are detailees. But they are on board. We intend to 
move that up to 113 in '04 and continue to build our analytical 
skill sets.
    Chairman Roberts. I'm going to ask Senator Levin's question 
except it isn't at the top. How will you avoid duplication of 
effort?
    General Libutti. In terms of the analytical piece?
    Chairman Roberts. Yes.
    General Libutti. I think it starts with strong leadership 
in defining lanes, holding people accountable and 
responsibility, and doing the sixth troop-leading step, which 
is supervise their activities. We need hands on to make this 
work.
    Chairman Roberts. Will state and local officials be 
required to obtain security clearances and how will local 
police be able to receive and properly disseminate the threat 
information to the public?
    General Libutti. I think this is again a subject that needs 
to be looked at very, very carefully.
    Chairman Roberts. As you and I talked before, and we went 
through several exercises, one of which I took part in, 
perception became reality. Everybody knows with the grandfather 
of the exercises in regard to Dark Winter that it was the TV 
coverage that panicked everybody to death, literally. So that 
is tough, tough question.
    But let me get back to the first part of it. To answer the 
classified quandary, will state and local officials be required 
to obtain security clearances?
    General Libutti. I don't think they will be required to. If 
you asked me would it be helpful, I would say yes, sir.
    Chairman Roberts. I got you. Basically I don't have any 
further questions. Senator Levin, Senator Rockefeller.
    Vice Chairman Rockefeller. I've got two. One I'm taking 
right off of Senator Roberts' question. In order to become 
sheriff you have to get elected. You obviously don't go through 
any other tests. As far as I know, when they hire they may have 
some kind of security or truthfulness measure, but I'm not 
aware of any. Are you aware of any in New York City?
    General Libutti. Sir, if you will forgive me, could you 
please restate your question?
    Vice Chairman Rockefeller. Any kind of security or 
truthfulness or no problems in their past type of tests?
    General Libutti. For hiring of----
    Vice Chairman Rockefeller. Of local law enforcement and 
first responder types.
    General Libutti. Oh, absolutely, yes, sir.
    Vice Chairman Rockefeller. How far do they go?
    General Libutti. Well, other than the typical background 
check, there is a very aggressive questionnaire, follow-up 
interviews, cross-check against all records, not only within 
New York State but my understanding is across the country. It's 
not something I was deeply involved in, but I can tell you, 
given the leadership of Commissioner Ray Kelly, we're always 
looking for the best and brightest. When we find problems, they 
are properly handled.
    But, if I may, much like the United States Marine Corps, 
we're looking for a few good men and women, and I was extremely 
proud to have served for almost a year and a half with the 
NYPD. They are high caliber people.
    Vice Chairman Rockefeller. I understand that, General. What 
I'm thinking of is a very, very rural state like my own, where 
there are only 15 communities larger than 5,000 people, and 
what it is that those first responders--EMS, law enforcement, 
et cetera--go through. I frankly don't know the answer and I 
will need to find that out.
    The second part of my question was this. To what degree, 
for example, on securing our ports, on securing our power 
grids, securing our rail lines, et cetera, what of that falls 
under your responsibility--not you particularly but the 
Homeland Security Department--and, to the extent that there is 
no money available for that, if that were to be the case, how 
do you go about it?
    General Libutti. Well, sir, you are correct in that it's 
not principally in my area of responsibility, if confirmed, 
with the exception that in terms of my responsibility vis-a-vis 
the infrastructure piece, all of which I've already stated, and 
the intelligence-sharing piece, it applies not simply to being 
a full partner in TTIC and across and out of TTIC with other 
intelligence agencies but within the Department.
    So my job is to take the lead with my IA piece in keeping 
my boss informed and also keeping the other directorates 
informed. So in terms of the transportation piece, the TSA 
responsibilities focus there. My job is to share intelligence 
information with them so they can properly assess the situation 
at hand relative to the vulnerability of a port or an air 
facility or whatever.
    Vice Chairman Rockefeller. Insofar as you are aware, on a 
national basis is any of that going on? I mean certainly it was 
in your own previous job. I'm thinking, for example, of a 
chemical plant. Chemical plants are ordinarily run by plant 
managers who ordinarily are under two-year cycles, and they are 
usually engineers who don't know a whole lot about security 
matters, much less intelligence matters.
    What do you do in a situation like that? What kind of 
intelligence do you get from them?
    General Libutti. Well, again, part of the intelligence 
piece ought to come from whatever the situation is with local 
law enforcement in and around that facility, or state police, 
in terms of eyes and ears on target and providing feedback. 
That's one aspect.
    My recollection is that there is a law pending that talks 
to the responsibility of homeland security to work again in 
concert with specifically chemical facilities and go beyond 
urging and requesting, but in terms of actionable events, to 
work with them, challenge them, evaluate and assess their 
activities relative to their status quo, their vulnerabilities 
and their risk. I can't recall the name of the proposed law. 
It's the Chemical Security Act, I believe. I think that's 
critical. I intend to support that 100 percent and, where 
necessary, within our own office of Homeland Security reach out 
with expertise and advice to support that effect.
    Vice Chairman Rockefeller. So that would be a voluntary 
thing on their part. In other words, what they felt they 
needed, then you would respond to that. Supposing you had a 
different view as to what they needed?
    General Libutti. I would stay within the limits of the law 
and be extremely aggressive about ensuring that they protect 
that facility and the people outside that facility, the 
community at large. That is indeed the name of the game here.
    Vice Chairman Rockefeller. Okay. Thank you.
    Chairman Roberts. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Just a couple more questions along the same line as we were 
talking before. The statement which you say was issued today, 
am I correct in believing that that would be a statement which 
would clarify the relationship between TTIC and CTC and DHS 
relative to intelligence analysis?
    General Libutti. It is a response, a letter in response to 
Senator Lieberman, to the best of my recollection, sir, and 
again I believe it was signed off on today.
    Senator Levin. Can you check this issue? Because on May 1 I 
requested at Governmental Affairs that Governor Ridge address 
that issue because there was some confusion still at that time, 
and Chairman Collins at that point seconded the suggestion.
    General Libutti. I'd be delighted to check it, sir.
    Senator Levin. And Secretary Ridge said that he would get 
us that clarification. This may be it today.
    General Libutti. Quite frankly and candidly, I guess I took 
some liberty on that. It didn't respond directly to you, but 
the substance of it----
    Senator Levin. Well, that doesn't make any difference 
whether it's directly to me or not. The question is whether 
it's directed to the issue and, if it is, I don't care who it's 
directed to. That's not the issue. At any rate, I just wanted 
to see what your understanding was as to what this document is 
that was released today.
    General Libutti. Staff is telling me that the letter that I 
referenced is not indeed the response to your request.
    Senator Levin. Okay, could you check or could somebody 
check out the status of that? It was a request. It's a very 
important issue.
    I think we'll all remember the 9/11 inquiry perhaps with 
different feelings and reminiscences, but nonetheless it would 
be important that you at least get a feel for where there was 
really an intelligence failure. Putting aside issues of cause 
and whether it contributed to or led to or might have been able 
to deter the events of 9/11, that's not what I'm referring to. 
I'm just talking about the facts, that you had intelligence 
information known to part of our government which was not 
shared with another part of our government. The people 
responsible to analyze foreign intelligence didn't have all the 
intelligence which was available to a number of our agencies.
    That is what we're trying to prevent, that crack which can 
come either because no one has responsibility or because two 
agencies have responsibility. You can get a crack either way. 
And if it's real good duplication and backup, you won't get the 
crack, but if it's sort of, oh, I thought they were doing it, 
no, we thought you were doing it, if that's the end result then 
you get the same kind of diffused and confused responsibility. 
So we'd appreciate that.
    Now, I guess another way to phrase the question is this. If 
your office got conflicting terrorist threat analyses, the 
office to which you are going to be confirmed got conflicting 
terrorist threat analyses from CTC and TTIC, would what happen? 
What would you do?
    General Libutti. Well, again back to a point I made 
earlier, we have a responsibility to do independent analysis, 
so the first thing that I would do is bring in the smartest 
people on our team. We'd look at the facts supporting the 
analysis and deal with that in terms of most probably 
connecting directly with the senior leadership in the 
organizations that supported the analysis.
    I grew up in an environment where commanders were in charge 
and responsible. There aren't a lot of people called 
``commanders'' in the intelligence business, but there are guys 
and folks, gals, who are directors or whatever. I intend to 
take immediate action, as appropriate, without either 
overreacting or being ungentlemanly, and get to the bottom of 
whatever the issues are.
    Senator Levin. Well, your experiences I hope will really be 
helpful. You've had 35 years of honorable service and great 
service to the nation in the Marines and then I guess about a 
year and a half recently in New York. It's been notable service 
and I think it can make a real contribution to straightening 
out this issue.
    One final question from me has do with the Freedom of 
Information Act and whether or not DHS will be complying with 
that Act. There is an exception to that Act, an exemption for 
so-called critical infrastructure information. We're trying to 
encourage companies to voluntarily share with the DHS 
information on a facility's vulnerability to terrorist attacks, 
including for key infrastructures, infrastructures such as 
roads, utilities, computer grids and chemical plants, much of 
which is privately owned. But the law is written in a very 
broad way so that it would be very possible for companies to 
share information which might be otherwise even available or 
which would be shared in order to keep it from regulatory 
bodies that otherwise might get to it and require some action 
on the part of that company relative to complying with 
structural safety laws or what have you.
    So we've got, and I would ask you--not today but as one of 
the first things that you take on--to look at the Freedom of 
Information Act exemption, to check, if you would, with the 
lawyers and whoever else might have a view on it. We had a good 
bipartisan amendment here which we did not end up offering on 
the creation of the DHS for a number of reasons but nonetheless 
is still highly relevant. So there's about I don't know how 
many Senators have introduced or co-sponsored legislation to 
address the breadth of the FOIA language that is in the law, 
and we would appreciate your looking at it, taking it up with 
Governor Ridge, and getting back to the Committee as to whether 
you would support any narrowing of that exemption along the 
lines of a bill which has been introduced by a whole bunch of 
Senators along the line of the bipartisan amendment which was 
prepared at the time DHS was authorized but not offered at that 
time. That would be very helpful.
    I congratulate you. You will make a real contribution and 
you are very much needed.
    General Libutti. Thank you, sir.
    Chairman Roberts. General, I don't have another question. I 
have an observation. I'm concerned, like the Senator from 
Michigan and others, about the ability of your directorate to 
get the raw intelligence without having to push, pull, demand, 
ask, beg for it. You shouldn't have to. A lack of information-
sharing that has already been pointed out by Senator Levin 
certainly helped cause 
9/11. It cannot happen again. So one of the responses that you 
indicated when one of the Senators asked the question on who 
you would go to if in fact you found yourself denied raw 
intelligence information or had a problem, and obviously said 
your boss, you would go directly to Tom Ridge.
    And then, not as an afterthought, you added on the 
responsibilities of this Committee. We indicated or I indicated 
in my opening statement that the telephone is a pretty good way 
to do that, or a personal conversation. So I would urge you to 
please keep this Committee informed as to the cooperation you 
get from CIA, CTC, TTIC and the intel community, and you can be 
assured that this Committee will take the issue very seriously.
    Now, General, we're going to try to waive the 48-hour rule 
on your nomination tomorrow. We have a meeting on a different 
matter and a threat briefing, but we're going to try to move 
your nomination first thing and approve it so you can get to 
work. Thank you for appearing before us, and we welcome your 
family as well.
    The hearing is adjourned.
    [Whereupon, at 3:50 p.m., the Committee adjourned.]


COMMITTEE BUSINESS MEETING TO VOTE ON THE NOMINATION OF FRANK LIBUTTI, 
   LIEUTENANT GENERAL, USMC, RET., TO BE UNDER SECRETARY OF HOMELAND 
    SECURITY FOR INFORMATION ANALYSIS AND INFRASTRUCTURE PROTECTION

                              ----------                              


                        WEDNESDAY, JUNE 18, 2003

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    Committee Members Present: Senators Roberts, Hatch, Bond, 
Lott, Snowe, Hagel, Chambliss, Warner, Rockefeller, Levin, 
Feinstein, Wyden, Durbin, Bayh, and Mikulski.
    Committee Staff Members Present: Bill Duhnke, Staff 
Director; Chris Mellon, Minority Staff Director; Rich Douglas, 
General Counsel; Kathleen McGhee, Chief Clerk; Jim Barnett, 
Randy Bookout, Tom Corcoran, Mike Davidson, Pete Dorn, Melvin 
Dubee, Rebecca Farley, Lorenzo Goco, Adam Harris, Jim Hensler, 
Chris Jackson, Andy Johnson, Ken Johnson, Mary Pat Lawrence, 
Brandon Milhorn, Don Mitchell, Elizabeth O'Reilly, Vera 
Redding, Jacqui Russell, Nancy St. Louis, Michael Schafer, 
Tracye Winfrey, and Steven Biegun.
    Chairman Roberts. The Committee will come to order.
    We will begin today's meeting with a motion to close the 
proceeding to the public. Therefore, pursuant to Rule 28 of the 
Standing Rules of the Senate, I move that the remainder of this 
meeting shall be closed to the public because the matters to be 
discussed will disclose matters necessary to be kept secret in 
the interest of national defense or the conduct of foreign 
relations of the United States.
    Is there a second?
    Senator Wyden. Second.
    Chairman Roberts. I am advised that a roll call vote is 
required. The Clerk will call the roll.
    Mrs. McGhee. Mr. Hatch.
    Senator Hatch. Aye.
    Mrs. McGhee. Mr. DeWine.
    Chairman Roberts. Aye by proxy.
    Mrs. McGhee. Mr. Bond.
    Senator Bond. Aye.
    Mrs. McGhee. Mr. Lott.
    Senator Lott. Aye.
    Mrs. McGhee. Ms. Snowe.
    Senator Snowe. Aye.
    Mrs. McGhee. Mr. Hagel.
    Senator Hagel. Aye.
    Mrs. McGhee. Mr. Chambliss.
    Senator Chambliss. Aye.
    Mrs. McGhee. Mr. Warner.
    Senator Warner. Aye.
    Mrs. McGhee. Mr. Levin.
    Senator Levin. Aye.
    Mrs. McGhee. Mrs. Feinstein.
    Senator Feinstein. Aye.
    Mrs. McGhee. Mr. Wyden.
    Senator Wyden. Aye.
    Mrs. McGhee. Mr. Durbin.
    Vice Chairman Rockefeller. Aye by proxy.
    Mrs. McGhee. Mr. Bayh.
    Senator Bayh. Aye.
    Mrs. McGhee. Mr. Edwards.
    Vice Chairman Rockefeller. Aye by proxy.
    Mrs. McGhee. Ms. Mikulski.
    Senator Mikulski. Aye.
    Mrs. McGhee. Mr. Rockefeller.
    Vice Chairman Rockefeller. Aye.
    Mrs. McGhee. Mr. Roberts.
    Senator Roberts. Aye.
    Mrs. McGhee. Seventeen ayes, zero nays.
    [Whereupon, the Committee adjourned.]
    [GRAPHIC] [TIFF OMITTED] 90302A.001
    
    [GRAPHIC] [TIFF OMITTED] 90302A.002
    
    [GRAPHIC] [TIFF OMITTED] 90302A.003
    
    [GRAPHIC] [TIFF OMITTED] 90302A.004
    
    [GRAPHIC] [TIFF OMITTED] 90302A.005
    
    [GRAPHIC] [TIFF OMITTED] 90302A.006
    
    [GRAPHIC] [TIFF OMITTED] 90302A.007
    
    [GRAPHIC] [TIFF OMITTED] 90302A.008
    
    [GRAPHIC] [TIFF OMITTED] 90302A.009
    
    [GRAPHIC] [TIFF OMITTED] 90302A.010
    
    [GRAPHIC] [TIFF OMITTED] 90302A.011
    
    [GRAPHIC] [TIFF OMITTED] 90302A.012
    
    [GRAPHIC] [TIFF OMITTED] 90302A.013
    
    [GRAPHIC] [TIFF OMITTED] 90302A.014
    
    [GRAPHIC] [TIFF OMITTED] 90302A.015
    
    [GRAPHIC] [TIFF OMITTED] 90302A.016
    
    [GRAPHIC] [TIFF OMITTED] 90302A.017
    
    [GRAPHIC] [TIFF OMITTED] 90302A.018
    
    [GRAPHIC] [TIFF OMITTED] 90302A.019
    
    [GRAPHIC] [TIFF OMITTED] 90302A.020
    
    [GRAPHIC] [TIFF OMITTED] 90302A.021
    
    [GRAPHIC] [TIFF OMITTED] 90302A.022
    
    [GRAPHIC] [TIFF OMITTED] 90302A.023
    
    [GRAPHIC] [TIFF OMITTED] 90302A.024
    
    [GRAPHIC] [TIFF OMITTED] 90302A.025
    
    [GRAPHIC] [TIFF OMITTED] 90302A.026
    

</pre></body></html>
